             Audit Report



  Usefulness of Department of
Homeland Security Travel Data to
 Identify Supplemental Security
  Income Recipients Who Are
    Outside the United States




      A-01-11-01142| February 2013
MEMORANDUM


Date:      February 1, 2013                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Usefulness of Department of Homeland Security Travel Data to Identify Supplemental Security
           Income Recipients Who Are Outside the United States (A-01-11-01142)

           The attached final report presents the results of our audit. Our objective was to determine the
           amount of Supplemental Security Income overpayments the Social Security Administration
           could identify using Department of Homeland Security travel data.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment

           cc:
           Janet Napolitano, Secretary of the Department of Homeland Security
           Charles K. Edwards, Deputy Inspector General, Department of Homeland Security
Summary of Usefulness of Department of Homeland Security
Travel Data to Identify Supplemental Security Income Recipients
Who Are Outside the United States
A-01-11-01142
February 2013

Objective                                  Our Findings

Our objective was to determine the         Although there are legal and technical challenges in obtaining data
amount of Supplemental Security            from DHS to identify SSI recipients who are absent from the United
Income (SSI) overpayments the Social       States, we estimated 35,068 SSI recipients had approximately
Security Administration (SSA) could        $152 million in overpayments because of unreported absences from
identify using Department of               the United States between September 2009 and August 2011.
Homeland Security (DHS) travel data.       Furthermore, millions of dollars more in overpayments could be
                                           identified if SSA includes all SSI recipients, regardless of their
Background                                 country of birth or associated bank. If our results using sample data
                                           associated with one bank represent all banks, we estimate our
Generally, SSI recipients are ineligible   review would have identified an additional $289 million in
for payments once they are absent          overpayments.
from the United States for
30 consecutive days.                       Developing a process with DHS—and if necessary, the Department
                                           of State—would be a long-term initiative; and SSA has a history of
DHS’ U.S. Customs and Border               overcoming legal and technical factors with other initiatives it has
Protection maintains TECS, which is a      pursued to address improper payments. Ultimately, the other
system that collects, among other          agencies have to be willing to work with SSA.
things, travel data on individuals who
enter and leave the United States.         Our Recommendations

                                           We recommended that SSA reach out to DHS again (and if
                                           necessary, the Department of State) to attempt to create a process
                                           that provides the necessary information to identify all (not just
                                           foreign-born) SSI recipients outside the United States for longer
                                           than 30 days, which could include proposing legislative changes.

                                           SSA agreed with the recommendation.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     Sample Results ...........................................................................................................................3
     Evidence Supporting Unreported Absences from the United States .........................................4
     Possible Unreported Absences from the United States..............................................................4
     Factors to Consider When Matching SSA Records Against TECS ...........................................4
           Legal Factors to Consider ....................................................................................................5
           Technical Factors to Consider Within SSA and DHS .........................................................7
     Prior Attempts to Obtain TECS Data.........................................................................................8
     Long-Term Initiatives to Obtain and Use Data to Identify and Prevent Improper Payments ...8
           Prisoner Data Matching .......................................................................................................9
           Access to Financial Institutions Initiative ..........................................................................10
Conclusion .....................................................................................................................................10
Recommendation ...........................................................................................................................10
Agency Comments .........................................................................................................................10
Appendix A – Scope, Methodology, and Sample Results.......................................................... A-1
Appendix B – Routine Uses of TECS ........................................................................................ B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)
ABBREVIATIONS
AFI                  Access to Financial Institutions

C.F.R.               Code of Federal Regulations

CBP                  U.S. Customs and Border Protection

DHS                  Department of Homeland Security

DoJ                  Department of Justice

HSPD                 Homeland Security Presidential Directive

IPERA                Improper Payments Elimination and Recover Act of 2010

IRS                  Internal Revenue Service

MoU                  Memorandum of Understanding

NACI                 National Agency Check with Written Inquiries

OIG                  Office of Inspector General

OMB                  Office of Management and Budget

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSI                  Supplemental Security Income

SSN                  Social Security Number

U.S.C.               United States Code




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)
OBJECTIVE
Our objective was to determine the amount of Supplemental Security Income (SSI)
overpayments the Social Security Administration (SSA) could identify using Department of
Homeland Security (DHS) travel data.

BACKGROUND
Generally, SSI recipients are ineligible for payments once they are absent from the United States
for 30 consecutive days. 1 Individuals who re-enter the United States after such absence are not
eligible for payments until they have been in the United States for 30 consecutive days. 2

SSI recipients are required to report events and changes of circumstances that may affect their
eligibility and payment amounts—including departures from the United States. 3 However,
because reporting such events may make recipients ineligible for SSI payments, some recipients
may fail to self-report this information to SSA.

In July 2003, the Government Accountability Office issued a report entitled, SSI: SSA Could
Enhance Its Ability to Detect Residency Violations (GAO-03-724) that noted overpayments
resulting from residency violations totaled about $118 million between 1997 and 2001. The
$118 million, however, only represented the violations SSA detected. Further, the report noted
that recipients born outside the United States accounted for at least 87 percent of those
overpayments. As a result, we are exploring alternatives to help the Agency detect recipients’
unreported absences from the United States.

DHS’ U.S. Customs and Border Protection (CBP) maintains TECS, a system that collects,
among other things, travel data on individuals who enter and leave the United States. 4 These




1
  Social Security Act § 1611(f), 42 U.S.C. § 1382(f); see also 20 C.F.R. § 416.215. There are exceptions for certain
blind or disabled children of military parents stationed overseas and students who are temporarily abroad for study
purposes. See also 20 C.F.R. § 416.216; SSA, POMS, SI 00501.415 (June 12, 2006) and SI 00501.411
(June 14, 1996). An SSI recipient who is outside the United States for 29 days is eligible for payment. Our review
did not include any analysis to identify recipients who may be following a pattern of being absent from the United
States for 29 days, returning to the United States for 1 day, and then being absent from the United States again for
29 days.
2
    Social Security Act § 1611(f)(1), 42 U.S.C. § 1382(f)(1); see also 20 C.F.R. § 416.215.
3
    20 C.F.R. § 416.701; 20 C.F.R. §§ 416.708(m) and (n).
4
  Per DHS, TECS is not an acronym. Also, TECS is a system that contains temporary and permanent enforcement,
inspection, and operational records relevant to the antiterrorism and law enforcement mission of CBP; among these
records are data pertaining to the travel by individuals who enter and leave the United States by air, land, or sea.




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)                      1
data include traveler’s name, flight itinerary (for example, New York City to London), 5 dates of
travel, and passport number. TECS does not include travel information between the United
States and its territories—America Samoa, Guam, Puerto Rico, and the U.S. Virgin Islands.

To conduct our review, we identified 7.6 million SSI recipients in current payment status as of
February 2011. From this population, we identified 1.3 million foreign-born SSI recipients. We
divided the 1.3 million into 2 groups based on how the individuals received their SSI payments.
We sampled

•     250 from the 257,512 foreign-born recipients receiving SSI payments via direct deposit in the
      bank used by most recipients (Sample A) 6 and

•     250 from the 221,505 foreign-born recipients receiving SSI payments via paper check
      (Sample B).

See Table 1 for a breakout of both samples by aged, blind, and disabled recipients.

                               Table 1: Aged, Blind, and Disabled Recipients
                        Sample         Aged              Blind      Disabled           Total
                          A             132                  2        116               250
                           B               87               4           159              250

We provided the sample cases to DHS’ Office of Inspector General (OIG), which worked with
CBP to match the data against TECS. The match was based on name and date of birth; not
Social Security number (SSN). CBP informed us that TECS did not track SSNs. Therefore,
DHS could only match by (a) name and date of birth or (b) passport number. 7

The match covered a 24-month period between September 2009 and August 2011. DHS OIG
analyzed the results to determine whether SSI recipients had unreported absences from the
United States for longer than 30 consecutive days. Because we performed this review for study




5
  TECS does not contain full travel itinerary information but rather the foreign location originating or completing the
trip to or from the United States.
6
  Sample A comprised the same 250 SSI recipients sampled in our September 2012 review of Supplemental Security
Income Recipients with Automated Teller Machine Withdrawals Outside the United States (A-01-11-01122). The
remaining 800,370 SSI recipients in current payment status had direct deposit to a bank other than the Sample A
bank.
7
    SSA does not have passport numbers in its systems.




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)                    2
purposes only, we did not need a computer matching agreement with DHS. 8 However, without a
matching agreement, we were unable to provide SSA information on the SSI recipients in our
sample who were outside the United States for longer than 30 days. As a result, SSA could not
assess actual overpayments on these cases. (For additional scope, methodology, and sample
results, see Appendix A.)

RESULTS OF REVIEW
                                                                     Chart 1: Sample Results
Based on DHS OIG’s review of TECS data,
we estimate 35,068 SSI recipients had
                                                                                                   Unreported
approximately $152 million in overpayments                250         25           13
                                                                                                   Absences from
because of unreported absences from the                                            29
                                                                      31                           United States
United States. 9                                          200
                                                                                                   Possible
Furthermore, millions of dollars more in                  150
                                                                                                   Unreported
overpayments could have been identified if                                         208             Absences from
                                                          100        194                           United States
we expanded our estimate to include all SSI
recipients, regardless of their country of birth           50
                                                                                                   No Findings
or associated bank.
                                                            0
                                                                 Sample A      Sample B
Sample Results
DHS OIG’s analysis of the 500 sample cases found the following.

•    38 recipients (25 from Sample A and 13 from Sample B) were overpaid an estimated
     $166,647 because of unreported absences from the United States. 10 These overpayments
     ranged from 1 to 24 months during our audit period.



8
  Under the Computer Matching and Privacy Protection Act of 1988, 5 U.S.C. § 552a(o) et seq., a computer
matching agreement is required, subject to certain exceptions, when an agency discloses Privacy Act-protected
records in its system of records to another agency for use in a computer matching program. This effectively requires
such an agreement in many cases where an agency intends to take action based on the results of a computerized data
match between agencies.
9
  We checked the 500 sample cases against SSA’s records of all individuals assigned an SSN, and 3.2 percent in
Sample A and 2.4 percent in Sample B had more than 1 person with the same name/date of birth combination.
Therefore, to be conservative, we reduced our estimates by twice the percentage from each sample—a 6.4-percent
reduction from Sample A and a 4.8-percent reduction from Sample B. The estimate shown in the report reflects
these reductions to account for the possibility of name/date of birth mismatches since the data match was not based
on SSN. See Appendix A of this report for more information.
10
  In Sample A, 25 recipients were overpaid an average of $3,858—ranging from $151 to $18,127, with a median of
$1,915. In Sample B, 13 recipients were overpaid an average of $5,399—ranging from $1,025 to $20,361, with a
median of $3,041.




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)                     3
•    60 recipients (31 from Sample A and 29 from Sample B) had foreign travel, but we could not
     determine whether they were outside the United States for longer than 30 days.

•    402 recipients (194 from Sample A and 208 from Sample B) did not have an overpayment.
     TECS showed no foreign travel or foreign travel for fewer than 30 days. In other cases,
     TECS showed foreign travel greater than 30 days, but the recipient was not receiving SSI
     payments during that time.

Evidence Supporting Unreported Absences from the United States
For 38 of the 500 sample cases, the travel data showed SSI recipients arriving in the United
States 30 or more days after leaving for a foreign country. All but one of these individuals
traveled round-trip between the same foreign location and the United States. 11 Also, 6 of the
38 had multiple occurrences of foreign travel within the 2-year audit period.

For example, according to TECS data, one SSI recipient was outside the United States for longer
than 6 months. However, the SSI recipient did not report this absence to SSA. Had SSA
received travel data from DHS—instead of relying on SSI recipients to self-report or for SSA to
identify the overpayment during a scheduled redetermination—SSA would have been able to
determine the recipient was overpaid at least $5,000. 12

Possible Unreported Absences from the United States
For 60 of the 500 sample cases, the SSI recipients had foreign travel, but we could not determine
whether they were outside the United States for longer than 30 days. For these cases, TECS
showed one-way travel data for the recipients during our audit period with no record of a round-
trip.

Without the round-trip travel data, we were unable to ascertain how long these 60 recipients were
outside the United States. Therefore, some of these recipients may have been outside the United
States for longer than 30 days.

Factors to Consider When Matching SSA Records Against TECS
There are legal and technical factors that SSA would need to address before data could be
shared—some of which are more long-term than others.




11
 Of the 38 cases, foreign locations traveled round-trip were as follows: Asia (13), North America (12), South
America (9), and Europe (4).
12
  A redetermination is a review of an SSI recipient’s non-medical eligibility factors to determine whether the
recipient is still eligible for and receiving the correct SSI payment. See 20 C.F.R. § 416.204(b)(2); SSA, POMS,
SI 02305.001 (October 4, 2007) and SI 02305.022 (June 12, 2012).




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)                  4
Legal Factors to Consider
•      Under the Computer Matching and Privacy Protection Act of 1988, 13 SSA and DHS (and
       possibly the Department of State) generally need to enter into a formal matching agreement
       to perform a computerized data match in cases where such a match impacts eligibility or
       recoupment of payments under a Federal benefit program. Developing a matching
       agreement is time-consuming and requires the approval of each Agency. SSA indicated that
       it previously tried to work with DHS on several occasions since 2008, but the two agencies
       did not reach an agreement. Ultimately, the final decision to enter into a matching agreement
       rests with each Agency’s Data Integrity Board. 14

            SSA OIG signed a Memorandum of Understanding (MoU) on April 9, 2012, with CBP for
                SSA OIG’s Office of Investigations to access TECS for law enforcement purposes. As of
                January 2013, SSA OIG was working on an Interagency Security Agreement and technical
                issues related to accessing TECS. SSA OIG’s access to TECS is for law enforcement
                purposes only and cannot be used to determine a recipient’s eligibility for SSI payments for
                non-law enforcement purposes.
            According to the section on routine uses of TECS in the Federal Register, data from TECS
                “. . . may be disclosed . . . [t]o an appropriate Federal, State, local, tribal, foreign, or
                international agency, if the information is relevant and necessary to a requesting agency’s
                decision concerning the . . . issuance of a security clearance, license, contract, grant, or other
                benefit . . . .” 15 For routine uses of TECS, see Appendix B.

•      SSA may need to enter into a matching agreement with the Department of State—in addition
       to an agreement with DHS. The only unique identifying information common between
       SSA’s system and TECS was name and date of birth. Because these two fields were solely
       used to match and identify individuals in TECS, it is possible the results of our review
       identified false positives. That is, if multiple people have the same name and date of birth,
       the TECS data could be linked to a different person than intended for the match. Without a
       unique identifier, such as an SSN or passport number, the data match may not identify the
       intended recipient (for example, spelling of names may differ between the two systems). 16



13
     As reflected in the amended provisions of the Privacy Act, 5 U.S.C. § 552a(o).
14
  A Data Integrity Board oversees and coordinates the various components of each Agency’s implementation of
data matches and consists of senior officials designated by the head of the Agency. See 5 U.S.C. § 552a(u). SSA
has agreements with DHS’ United States Citizenship and Immigration Services and the Department of State to assist
SSA in enumerating aliens. DHS and Department of State collect enumeration data as part of the immigration
process.
15
  Routine uses of TECS are described in the Federal Register, Vol. 73, No. 245, December 19, 2008, 77778-77782.
See Appendix B.
16
  Under any future match, SSA would plan to confirm the travel data with the SSI recipient before stopping SSI
payments and/or assessing an overpayment.




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)                    5
       To more accurately identify SSI recipients with a unique identifier, SSA could potentially
       enter into an agreement with the Department of State to obtain passport numbers. 17 With this
       identifier, SSA could work with DHS more effectively to detect SSI recipients with foreign
       travel.

SSA also expressed concern with being able to enter into an agreement with the Department of
State to obtain passport numbers for SSI recipients. Specifically, SSA’s review of the Privacy
Act 18 made it question whether (a) passport numbers were relevant and necessary to carry out the
provisions of the SSI program and (b) the Agency would need to get the passport number
directly from the SSI recipients (instead of the Department of State).

However, Social Security Act section 1611(f), Executive Order 13520, the Improper Payments
Elimination and Recovery Act of 2010 (IPERA), 19 Office of Management and Budget (OMB)
Memorandum M-11-02, and SSA’s Strategic Plan for Fiscal Years 2008-2013 support the need
for such a match. A legislative change to the Privacy Act may be necessary to allow SSA to
obtain passport numbers from the Department of State to facilitate a match with TECS.

            Social Security Act section 1611(f) prohibits SSI payments to recipients outside the United
               States for more than 30 days. SSA relies on recipients to self-report their absences from the
               United States; however, SSA could potentially use a recipient’s passport number (which is a
               unique identifier) in a match with DHS’ travel data to determine whether individuals are
               ineligible for SSI because they are outside the United States.
            The President issued Executive Order 13520 on November 20, 2009. The purpose of the
               Order was to reduce improper payments by intensifying efforts to eliminate payment error,
               waste, fraud, and abuse in the major programs administered by the Government—including
               SSA’s programs.
            IPERA became law on July 22, 2010 and was enacted to prevent the loss of billions in
               taxpayer dollars. Under IPERA, agencies—including SSA—must estimate the amount of
               improper payments in their programs and take steps to reduce these improper payments.
            OMB Memorandum M-11-02, Sharing Data While Protecting Privacy, issued
               November 3, 2010, stated "Federal agencies are encouraged to engage in coordinated efforts
               to share high-value data for purposes of supporting important Administrative initiatives,
               informing public policy decisions, and improving program implementation. These efforts



17
  The U.S. passport application contains name, date of birth, SSN, etc. When a passport is renewed, a new passport
number is assigned. Therefore, if SSA pursues a matching agreement with the Department of State, SSA would
need to obtain passport data periodically to ensure it has current passport numbers.
18
   5 U.S.C. §§ 552a(e)(1) and (2) state that an Agency shall “(1) maintain in its records only such information about
an individual as is relevant and necessary to accomplish a purpose of the agency required to be accomplished by
statute or by executive order of the President; (2) collect information to the greatest extent practicable directly from
the subject individual when the information may result in adverse determinations about an individual’s rights,
benefits, and privileges under Federal programs.”
19
     Public Law No. 111-204, 124 STAT 2224-2235, July 22, 2010.




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)                          6
               should include: . . . (2) identifying high-value data and data sharing methodologies that would
               promote more efficient delivery of Federal, State, and local benefits with lower error rates . . .
               .”
            SSA’s Strategic Plan Fiscal Years 2008-2013 includes an objective to curb improper
               payments. Under this objective, SSA states its need to “. . . reduc[e] improper payments in
               the [SSI] program . . . [and] continue [its] aggressive emphasis on . . . new data exchange
               opportunities to increase detection of improper payments.” The Strategic Plan has another
               objective to protect its programs from waste, fraud, and abuse; and SSA states that it “. . . will
               continue to aggressively prevent fraud and abuse in [its] programs by collaborating with other
               federal agencies . . . .” 20

Technical Factors to Consider Within SSA and DHS
•      The data would have to be formatted so SSA could effectively use it to identify recipients
       who have been outside the United States for longer than 30 days. For instance, an individual
       could take multiple trips outside the United States and therefore could be listed in TECS
       multiple times. SSA’s systems would need to be able to recognize each unique trip and
       determine whether the individual was ineligible for SSI payments for the specified time
       period.

•      TECS does not maintain complete information on individuals traveling between the United
       States and U.S. territories (that is, America Samoa, Guam, Puerto Rico, and the U.S. Virgin
       Islands). This limitation decreases SSA’s opportunity to identify recipients who are in the
       U.S. territories for longer than 30 days, and therefore, are ineligible for SSI.

•      SSA and DHS would need to set a timeframe for receiving the data (that is, monthly,
       quarterly, etc.). 21 To prevent overpayments, SSA would need to obtain TECS data as soon as
       possible after the recipient is outside the United States for longer than 30 days. Preventing
       the accumulation of overpayments is preferable to SSA’s learning months later that a
       recipient was overpaid and then trying to recover the overpayment from the SSI recipient.

•      As of 2012, CBP had not fully implemented procedures to collect land departure data for
       U.S. citizens who enter Canada and Mexico from the United States. Without complete travel
       data for land crossings, SSA will be unable to determine how long SSI recipients travel
       outside the United States by land. 22



20
     SSA, Pub. No. 04-002, Strategic Plan Fiscal Years 2008-2013, September 2008, pages 23, 24, 26, and 27.
21
     SSA already obtains certain immigration data monthly from DHS.
22
  After September 11, 2001, tighter controls over tracking foreign travel were put in place. The Western
Hemisphere Travel Initiative requires that U.S. travelers present a passport or other document that denotes identity
and citizenship when entering and leaving the United States. This requirement went into effect in 2007 for air travel
and 2009 for land and sea travel.




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)                   7
•      CBP assigned an employee to manually create and run a program to match our sample data
       files against TECS, which took 2.5 hours to process 250 records. 23 When asked if CBP could
       handle a request for all 7 million SSI recipients receiving payments, it indicated there would
       be a major impact on its system and bandwidth resources. However, CBP said it could look
       into the feasibility of processing an automatic match directly between SSA’s mainframe and
       TECS. In addition, CBP indicated it would require funding to process a match program.

Prior Attempts to Obtain TECS Data
As previously mentioned, SSA informed us that it had encountered barriers in obtaining TECS
data.

•      According to SSA, in February 2009, it began discussions with CBP to enter into an
       agreement to access TECS. CBP provided SSA its standard MoU, which allows law
       enforcement agencies to access and use TECS information. Many of the MoU’s terms and
       conditions did not apply to SSA’s intended use of ensuring proper SSI payments. SSA’s
       Office of the General Counsel met with CBP’s Office of the Chief Counsel to attempt to
       reach an agreement that would cover SSA’s intended use and meet the requirements of the
       Privacy Act.

•      In May 2009, SSA and CBP tried again to reach an agreement.

•      In December 2011, SSA once again initiated discussions with CBP to explore a data
       exchange pilot using TECS to detect improper payments. CBP insisted that SSA field office
       employees who would access TECS undergo background checks. 24 CBP also stated it did not
       have the infrastructure to support a data exchange with another agency.

Long-Term Initiatives to Obtain and Use Data to Identify and Prevent
Improper Payments
SSA has a history of overcoming legal and technical issues so it can obtain data to identify and
prevent improper payments. Two examples are below—one obtaining prisoner data and one for
bank information. Based on these prior initiatives, it does not seem unreasonable that, in the
long-term, SSA could develop a process with DHS—and if necessary, the Department of State—



23
     CBP ran a separate match for each of the two sample groups of 250 each, for a total of 500 cases.
24
  SSA expressed concern that background checks for SSA’s TECS users could be an administrative and financial
burden on the Agency if the background checks required are more extensive than those currently performed for SSA
employees under Homeland Security Presidential Directive (HSPD) 12, Policy for a Common Identification
Standard for Federal Employees and Contractors. OMB Memorandum M-05-24 provided guidance on HSPD-12,
which requires that agencies, such as SSA, process a National Agency Check with Written Inquiries (NACI) or other
suitability or national investigation on all employees and contractors. As of December 2009, SSA reported
100 percent compliance in processing NACI clearances for all its employees and contractors.




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)              8
to identify and prevent improper SSI payments to recipients who are outside the United States
for more than 30 days. Ultimately, the other agencies have to be willing to work with SSA.

Prisoner Data Matching
Our May 1996 audit found that prisoners were improperly receiving Old-Age, Survivors and
Disability Insurance and SSI benefit payments, 25 and SSA had achieved only limited success in
obtaining prisoner information. Our June 1997 audit found that payments to prisoners were not
always detected or stopped because of control weaknesses in SSA’s prisoner record matching
procedures and processing of prisoner alerts. 26 SSA made improvements over the years; and our
July 2003 audit 27 found that SSA

•      had active agreements to obtain prisoner data from the 50 States, the District of Columbia,
       the Federal Bureau of Prisons, and over 3,000 county and local facilities;

•      implemented systems to monitor compliance with prisoner agreements and track and resolve
       prisoner cases that did not verify through SSA’s Enumeration Verification System; and

•      used the additional tools made available through new legislation 28 to improve its efforts to
       stop Social Security benefit payments to prisoners and collect overpayments from prisoners.

Although it took many years, SSA now regularly obtains data to identify and prevent improper
payments to prisoners. Additionally, legislation was enacted to exempt SSA’s prison matching
program from the Computer Matching and Privacy Protection Act of 1988. 29




25
  Social Security Act §§ 202(x)(1)(A)(i) and 1611(e)(1)(A), 42 U.S.C. § 402(x)(1)(A)(i) and
42 U.S.C. § 1382(e)(1)(A).
26
  SSA OIG, Effectiveness in Obtaining Records to Identify Prisoners (A-01-94-02004), May 1996 and Effectiveness
of the Social Security Administration’s Procedures to Process Prisoner Information, Suspend Payments and Collect
Overpayments (A-01-96-61083), June 1997.
27
     SSA OIG, Follow-up On Prior Office of the Inspector General Prisoner Audits (A-01-02-12018), July 2003.
28
  Public Law No. 104-193, the Personal Responsibility and Work Opportunity Reconciliation Act of 1996, § 203
(enacted in August 1996); Public Law No. 106-169, the Foster Care Independence Act of 1999, §§ 202 and 203
(enacted in December 1999); and Public Law No. 106-170, the Ticket to Work and Work Incentives Improvement
Act of 1999, § 402 (enacted in December 1999).
29
     5 U.S.C. § 552a(a)(8)(B)(viii).




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)              9
Access to Financial Institutions Initiative
The Social Security Act was amended in 1999 to allow SSA to request financial data for SSI
recipients, and SSA updated its regulations in 2003. 30 In 2005, SSA started its Access to
Financial Institutions (AFI) pilot initiative in New York and New Jersey. AFI is an electronic
process that assists SSA in verifying bank account balances for purposes of determining SSI
eligibility. Specifically, a third-party vendor searches for undisclosed bank accounts within a
certain geographical area, based on the SSI recipient’s address.

After the initial pilot of AFI, SSA expanded it nationwide. The nationwide roll-out of AFI was
completed in June 2011. In 2012, bank data from the third-party vendor was integrated into
SSA’s SSI system.

CONCLUSION
Although there are legal and technical challenges in obtaining data from DHS to identify SSI
recipients who are absent from the United States, we estimated 35,068 SSI recipients had
approximately $152 million in overpayments because of unreported absences from the United
States between September 2009 and August 2011. Furthermore, millions of dollars more in
overpayments could be identified if SSA includes all SSI recipients, regardless of their country
of birth or associated bank. If our results using sample data associated with one bank are
representative of all banks, we estimate our review would have identified an additional
$289 million in overpayments (see Appendix A).

Developing a process with DHS—and if necessary, the Department of State—would be a long-
term initiative; and SSA has a history of overcoming legal and technical factors with other
initiatives it has pursued to address improper payments.

RECOMMENDATION
Instead of relying on SSI recipients to self-report absences from the United States, we
recommend SSA reach out to DHS again (and if necessary, the Department of State) to attempt
to create a process that provides the necessary information to identify all (not just foreign-born)
SSI recipients outside the United States for longer than 30 days, which could include proposing
legislative changes.

AGENCY COMMENTS
SSA agreed with the recommendation; see Appendix C.



30
  Social Security Act § 1631(e)(1)(B), 42 U.S.C. § 1383(e)(1)(B); 20 C.F.R. § 416.207. Also, see Foster Care
Independence Act of 1999 § 213.




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)              10
                                        APPENDICES




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)
Appendix A – SCOPE, METHODOLOGY, AND SAMPLE RESULTS
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and other relevant legislation as well
    as the Social Security Administration’s (SSA) regulations, rules, policies, procedures, and
    relevant reports.

•   Obtained a file of 7.6 million Supplemental Security Income (SSI) recipients in current
    payment status as of February 2011. From this file, we identified 2 distinct groups of
    foreign-born recipients—1,057,882 with direct deposit and 221,505 without direct deposit
    (paper checks—Population B in Table B-1). From the 1 million with direct deposit, we
    selected 1 bank to sample—Population A in Table A-1.

                                                  Table A-1:
                                                                            Number of SSI
                     Population             Method of Payment
                                                                             Recipients
                           A                   Direct Deposit                 257,512
                           B                    Paper Check                   221,505

        Note:    Population A was the same population we used in our audit Supplemental Security Income
                 Recipients with Automated Teller Machine Withdrawals Outside the United States
                 (A-01-11-01122). From 1,057,882 recipients who were foreign-born and had direct deposit, we
                 grouped the records by bank institution and refined the population to 257,512 belonging to the
                 bank with the most SSI recipients.

•   Selected a random sample of 250 records from each of the 2 populations, totaling
    500 records.

•   Provided case data on these two samples to the Department of Homeland Security’s (DHS)
    Office of Inspector General (OIG). 1 DHS OIG sent the data to DHS’ U.S. Customs and
    Border Protection (CBP). CBP matched our records to those in TECS based on the SSI
    recipient’s first name, last name, and date of birth. CBP provided the results of the match to
    DHS OIG. DHS OIG analyzed the records for foreign travel during the 24-month period
    September 2009 through August 2011.




1
  The 250 SSI recipients in Sample A received $346,756 in Federal SSI payments and $94,915 in State Supplement
payments during the 24-month period of September 2009 through August 2011. The 250 SSI recipients in Sample B
received $371,931 in Federal SSI payments and $68,233 in State Supplement payments during this same time
period. Each State decides whether they will make optional State supplement payments, what the eligibility
categories will be and what the supplement rates will be. The intent of the optional State supplement program is to
meet needs which are not fully met by the Federal SSI payment.




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)              A-1
DHS OIG analyzed the results to identify SSI recipients who were outside the United States for
longer than 30 days and calculated the estimated overpayment based on SSI payment
information provided by SSA OIG.

We relied on DHS CBP to match the SSI recipients’ names and dates of birth to TECS and
provide the matches to DHS OIG. We also relied on DHS OIG to analyze the results of the
match. However, we reviewed DHS OIG’s supporting documentation to conclude on sufficiency
and reliability to meet the needs of our audit.

We conducted our audit between August 2011 and September 2012 in Boston, Massachusetts,
and Washington, D.C. The entities audited were SSA’s field offices under the Office of the
Deputy Commissioner for Operations. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We tested the SSI data obtained for our
audit and determined them to be sufficiently reliable to meet our objective. The TECS data was
also sufficiently reliable for our audit purposes and we disclosed the issues we had with the data
in the body of this report. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

Sample Results and Projections
Tables A-2, A-3, and A-4 show the results of Sample A—foreign-born SSI recipients with direct
deposit—and Sample B—foreign-born SSI recipients with paper checks. Tables A-5 and A-6
show the overall results of Samples A and B combined if you assume the characteristics and
findings observed for the selected bank to be representative of any bank providing services to the
population of approximately 1 million recipients with direct deposit. 2

Since the data match was based on name and date of birth (not Social Security number or
passport number), there could be false hits. Therefore, we checked the 500 sample cases against
SSA’s records of all individuals assigned an SSN to determine how many of the name/date of
birth combinations identified more than one person. We found that Sample A had 3.2 percent
(8 of 250) and Sample B had 2.4 percent (6 of 250) of the cases with more than one person with
the same name and date of birth combination. To be conservative, we reduced our estimates by
twice these percentages to 6.4 percent in Sample A and 4.8 percent in Sample B, as shown below
Tables A-3 and A-4.




2
  Nothing came to our attention that would indicate that an SSI recipient whose payment was direct deposited in
Bank A was more or less likely to be ineligible for SSI because he or she was outside the United States for longer
than 30 days than someone who had his or her SSI payment direct deposited in a different bank.




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)                A-2
                              Table A-2: Population and Sample Size

                                                     Sample A                  Sample B
                     Population Size                   257,512                 221,505
                       Sample Size                       250                     250

 Table A-3: Number of SSI Recipients with Unreported Absences from the United States

                                            Sample A               Sample B               Combined
        Identified in Sample                    25                        13                 38
            Point Estimate                    25,751                 11,518                37,269
       Projection Lower Limit                 18,154                  6,876
       Projection Upper Limit                 35,239                 18,027
        Note:   All projections are at the 90-percent confidence level.

Based on our reduction factors of 6.4 percent and 4.8 percent, respectively, we calculated
adjusted point estimates as: Sample A – 24,203; Sample B – 10,965; Combined – 35,068.

Table A-4: Amount of Undetected SSI Overpayments from Unreported Absences from the
                                   United States

                                            Sample A                Sample B              Combined
         Identified in Sample                 $96,456                $70,191              $166,647
            Point Estimate                 $99,353,933             $62,190,700         $161,544,633
       Projection Lower Limit              $51,171,930             $21,419,346
       Projection Upper Limit             $147,535,936            $102,962,055
        Note:   All projections are at the 90-percent confidence level.

Based on our reduction factors of 6.4 percent and 4.8 percent, respectively, we calculated
adjusted point estimates as: Sample A – $92,995,281; Sample B – $59,205,546; Combined –
$152,200,827.

Sample A projections reflected the population from one bank with the most SSI recipients.
However, where an SSI recipient has a bank account is not an indicator of whether the individual
is more likely to travel outside the United States. Therefore, we also estimated our results to all
banks from Sample A, as shown in Tables A-5 and A-6.




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)     A-3
                Table A-5: Population and Estimates to All Banks in Sample A

            Population Size                                                       1,057,882
            Number of SSI Recipients with Unreported Absences from the United
                                          States
            Point Estimate                                                        105,787
            Amount of Undetected SSI Overpayments from Unreported Absences
                                 from the United States
            Point Estimate                                                    $408,154,717
                Note:   All projections are at the 90-percent confidence level.

Based on our 6.4-percent reduction factor, we calculated adjusted point estimates as 99,017 SSI
recipients with $382,032,815 of undetected SSI overpayments from unreported absences from
the United States.

     Table A-6: Adjusted Point Estimates for Combined Samples A (All Banks) and B
    Adjusted, Estimated Number of SSI Recipients with
    Unreported Absences from the United States (99,017 from                          109,982
    Sample A plus 10,965 from Sample B)
    Adjusted, Estimated Amount of Undetected SSI
    Overpayments from Unreported Absences from the
                                                                                  $441,238,361
    United States ($382,032,815 from Sample A plus
    $59,205,546 from Sample B)




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)   A-4
Appendix B – ROUTINE USES OF TECS
Below is an excerpt from the Federal Register, Vol. 73, No. 245, December 19, 2008,
page 77781, on the routine uses for TECS.

        ROUTINE USES OF RECORDS MAINTAINED IN THE SYSTEM, INCLUDING
        CATEGORIES OF USERS AND THE PURPOSES OF SUCH USES:

        In addition to those disclosures generally permitted under 5 U.S.C. 552a(b) of the Privacy
        Act, all or a portion of the records or information contained in this system may be
        disclosed outside DHS as a routine use pursuant to 5 U.S.C. 552a(b)(3) as follows:

        A. To the Department of Justice or other Federal agency conducting litigation or in
        proceedings before any court, adjudicative or administrative body, when it is necessary to
        the litigation and one of the following is a party to the litigation or has an interest in such
        litigation:

        1. DHS or any component thereof;

        2. Any employee of DHS or any component in his/her official capacity;

        3. Any employee of DHS or any component in his/her individual capacity where DOJ or
        DHS has agreed to represent the employee; or

        4. The U.S. or any agency thereof, is a party to the litigation or has an interest in such
        litigation, and DHS or CBP determines that the records are both relevant and necessary to
        the litigation and the use of such records is compatible with the purpose for which DHS
        or CBP collected the records.

        B. To a congressional office in response to an inquiry from that congressional office
        made at the request of the individual to whom the record pertains.

        C. To the National Archives and Records Administration or other Federal government
        agencies pursuant to records management inspections being conducted under the
        authority of 44 U.S.C. 2904 and 2906.

        D. To an agency, organization, or individual for the purpose of performing

        audit or oversight operations as authorized by law, but only such information as is
        necessary and relevant to such audit or oversight function.

        E. To appropriate agencies, entities, and persons when:

        1. DHS or CBP suspects or has confirmed that the security or confidentiality of
        information in the system of records has been compromised;



Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)   B-1
        2. DHS or CBP has determined that as a result of the suspected or confirmed compromise
        there is a risk of harm to economic or property interests, identity theft or fraud, or harm to
        the security or integrity of this system or other systems or programs (whether maintained
        by DHS, CBP, or another agency or entity) or harm to the individual who relies upon the
        compromised information; and

        3. The disclosure made to such agencies, entities, and persons is reasonably necessary to
        assist in connection with DHS or CBP’s efforts to respond to the suspected or confirmed
        compromise and prevent, minimize, or remedy such harm.

        F. To contractors and their agents, grantees, experts, consultants, and others performing
        or working on a contract, service, grant, cooperative agreement, or other assignment for
        DHS or CBP, when necessary to accomplish an agency function related to this system of
        records. Individuals provided information under this routine use are subject to the same
        Privacy Act requirements and limitations on disclosure as are applicable to DHS/CBP
        officers and employees.

        G. To appropriate Federal, State, local, tribal, or foreign governmental agencies or
        multilateral governmental organizations responsible for investigating or prosecuting the
        violations of, or for enforcing or implementing, a statute, rule, regulation, order, license,
        or treaty where DHS determines that the information would assist in the enforcement of
        civil or criminal laws.

        H. To a court, magistrate, or administrative tribunal in the course of presenting evidence,
        including disclosures to opposing counsel or witnesses in the course of civil or criminal
        discovery, litigation, or settlement negotiations, or in response to a subpoena from a court
        of competent jurisdiction.

        I. To third parties during the course of a law enforcement investigation to the extent
        necessary to obtain information pertinent to the investigation, provided disclosure is
        appropriate to the proper performance of the official duties of the officer making the
        disclosure.

        J. To an organization or individual in either the public or private sector, either foreign or
        domestic, where there is a reason to believe that the recipient is or could become the
        target of a particular terrorist activity or conspiracy, to the extent the information is
        relevant to the protection of life or property and disclosure is appropriate to the proper
        performance of the official duties of the person making the disclosure.

        K. To an appropriate Federal, State, local, tribal, foreign, or international agency, if the
        information is relevant and necessary to a requesting agency’s decision concerning the
        hiring or retention of an individual, or issuance of a security clearance, license, contract,
        grant, or other benefit, or if the information is relevant and necessary to a DHS decision
        concerning the hiring or retention of an employee, the issuance of a security clearance,
        the reporting of an investigation of an employee, the letting of a contract, or the issuance
        of a license, grant or other benefit and when disclosure is appropriate to the proper
        performance of the official duties of the person making the request.

Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)   B-2
        L. To appropriate Federal, State, local, tribal, or foreign governmental agencies or
        multilateral governmental organizations, for purposes of assisting such agencies or
        organizations in preventing exposure to or transmission of a communicable or
        quarantinable disease or for combating other significant public health threats.

        M. To Federal and foreign government intelligence or counterterrorism agencies or
        components where CBP becomes aware of an indication of a threat or potential threat to
        national or international security, or where such use is to assist in anti-terrorism efforts
        and disclosure is appropriate in the proper performance of the official duties of the person
        making the disclosure.

        N. To the news media and the public, with the approval of the DHS Chief Privacy Officer
        in consultation with counsel, as appropriate, when there exists a legitimate public interest
        in the disclosure of the information or when disclosure is necessary to preserve
        confidence in the integrity of CBP or is necessary to demonstrate the accountability of
        CBP’s officers, employees, or individuals covered by the system, except to the extent it is
        determined that release of the specific information in the context of a particular case
        would constitute an unwarranted invasion of personal privacy.

        O. To a Federal, State, or local agency, or other appropriate entity or individual, or
        through established liaison channels to selected foreign governments, in order to provide
        intelligence, counterintelligence, or other information for the purposes of intelligence,
        counterintelligence, or antiterrorism activities authorized by U.S. law, Executive Order,
        or other applicable national security directive.




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)   B-3
           Appendix C – AGENCY COMMENTS




                                             SOCIAL SECURITY

 MEMORANDUM


Date:      January 07, 2013                                                               Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis        /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Usefulness of Department of Homeland Security
           Data to Identify Supplemental Security Income Recipients Who Are Outside the United States”
           (A-01-11-01142)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comment.
           Please let me know if we can be of further assistance. You may direct staff inquiries to Gary
           Hatcher at (410) 965-0680.

           Attachment




           Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)   C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“USEFULNESS OF DEPARTMENT OF HOMELAND SECURITY DATA TO
IDENTIFY SUPPLEMENTAL SECURITY INCOME RECIPIENTS WHO ARE
OUTSIDE THE UNITED STATES” (A-01-11-01142)

Recommendation

Reach out to the Department of Homeland Security again (and if necessary, the Department of
State) to attempt to create a process that provides the necessary information to identify all (not
just foreign-born) Supplemental Security Income recipients outside the United States for more
than 30 days, which could include proposing legislative changes.

Response

We agree.




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)   C-2
Appendix D – MAJOR CONTRIBUTORS
    Judith Oliveira, Director, Boston Audit Division

    David Mazzola, Audit Manager

    Chad Burns, Senior Auditor

    Kevin Joyce, IT Specialist

    Brennan Kraje, Statistician

    Frank Salamone, Senior Auditor




Usefulness of DHS Travel Data to Identify SSI Recipients Who are Outside the U.S. (A-01-11-01142)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
